No. 19-101
In the

Supreme Court of the United States
IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Petitioner,
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
SEMICONDUCTOR, INC.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

BRIEF OF TECHNOLOGY INDUSTRY
LEADERS AS AMICI CURIAE IN
SUPPORT OF PETITIONER
David A. Barrett
Counsel of Record
Nicholas A. Gravante, Jr.
Helen M. Maher
Boies Schiller Flexner LLP
55 Hudson Yards
New York, NY 10001
(212) 446-2300
dbarrett@bsfllp.com
Counsel for Amici Curiae
290671

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
1.

The Constitution Protects the Right
of Inventors to Jur y Deter mination
of Patent Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

2.

The Decision Below Gravely Weakens Patent
Protection and Threatens Innovation . . . . . . . . . 5

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Dayton Power & Light Co. v.
Pub. Utils. Comm’n of Ohio,
292 U.S. 290 (1934) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Galloway v. United States,
319 U.S. 372 (1943)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Grenada Steel Industries v.
Alabama Oxygen Co.,
695 F.2d 883 (5th Cir. 1983) . . . . . . . . . . . . . . . . . . . . . 7
Hassan v. Stafford,
472 F.2d 88 (3d Cir. 1973) . . . . . . . . . . . . . . . . . . . . . . . 7
Microsoft Corp. v. i4i Ltd. Partnership,
564 U.S. 91 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8
Powers v. Bayline Mariners, Corp.,
83 F.3d 789 (6th Cir.) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Quock Ting v. United States,
140 U.S. 417 (1891) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Radio Corp. of Am. v. Radio Eng’g Labs.,
293 U.S. 1 (1934)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

iii
Cited Authorities
Page
Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Strickland v. Francis,
738 F.2d 1542 (11th Cir. 1984) . . . . . . . . . . . . . . . . . . . 7
The Conqueror,
166 U.S. 110 (1897)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
United States v. Coleman,
501 F.2d 342 (10th Cir. 1974)  . . . . . . . . . . . . . . . . . . . . 7
United States v. Woodson,
526 F.2d 550 (9th Cir. 1975) . . . . . . . . . . . . . . . . . . . . . 7
Constitution, Statutes and Rules
U.S. Const. A mend. VII . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 6
U.S. Const. A rt. I, Sec. 8, Cl. 8 . . . . . . . . . . . . . . . . . . . . 2
35 U.S.C. § 282(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8
Supreme Court Rule 37.2(a)  . . . . . . . . . . . . . . . . . . . . . . . 1
Supreme Court Rule 37.6  . . . . . . . . . . . . . . . . . . . . . . . . . 1

iv
Cited Authorities
Page
Other Authorities
19 J.W. Moore, et al., Moore’s Federal Practice:
Civil § 206.02 (3d ed. 2016) . . . . . . . . . . . . . . . . . . . . . . 4
P. Maier, Ratification: The People Debate the
Constitution, 1787-1788 (2010) . . . . . . . . . . . . . . . . . . . 3
The Federalist No. 83 (M. Beloff ed. 1987) . . . . . . . . . . . 4

1
INTEREST OF AMICI CURIAE1
This Brief amici curiae is filed on behalf of twelve
senior executives, entrepreneurs and venture capitalists
who have devoted their careers spanning decades to
founding, investing in and managing businesses whose
livelihood is cutting-edge technology. These companies,
centered in California’s “Silicon Valley,” focus on inventing,
developing and commercializing technology that, in some
cases, literally creates new industries and ways of life.
Protection of intellectual property through patents and
trade secret process knowhow is absolutely critical to
the success and continued creation and expansion of
these businesses. Amici, several of whom are inventors
themselves, bring a unique perspective on the practical
impact of patent litigation at the intersection of innovation
and economic development. Relevant background and
experience of each of the signatories is described in the
Appendix to this Brief.
SUMMARY OF ARGUMENT
This is a patent infringement case. The jury
determined that the plaintiff’s patent was valid and was not
anticipated by the defendant’s prior art claims. The jury
further determined that the defendant willfully infringed
the patent at issue, and the district court awarded treble
1. Pursuant to Rule 37.6, amici certify that no counsel for a
party authored this brief in whole or in part, and that no person
other than Petitioner has made a monetary contribution intended
to fund the preparation or submission of this brief. Pursuant
to Rule 37.2(a), counsel for Petitioner and Respondent received
at least ten days’ notice of the intent to file this brief and have
consented to its filing.

2
damages based on the defendant’s trial misconduct.
Following both inter partes review and ex parte review,
the Patent and Trademark Office (“Patent Office”) reaffirmed on each occasion the validity determination that
it made in issuing the patent. Notwithstanding the Patent
Office’s repeated findings of validity, and the jury verdict
to the same effect upheld by the district court, the Federal
Circuit, based on a cold reading of the trial transcript,
awarded defendant judgment as a matter of law.
Amici are concerned that the Federal Circuit’s decision
in this case – made by three unelected judges – usurps
the Constitutionally-mandated role of juries to find the
facts and decide issues of witness credibility. In so doing,
the Federal Circuit continues an unfortunate pattern
of improper appellate fact-finding that destabilizes our
patent system to the severe detriment of entrepreneurial
invention. Amici urge this Court to step in and restore
the proper roles of the jury and appellate review in patent
litigation by granting certiorari in this case.
ARGUMENT
1. The Constitution Protects the Right of Inventors
to Jury Determination of Patent Claims
Part of the reason that such incredible innovation
has flourished in this country is our system of patent
protection, as ordained in the United States Constitution.
U.S. Const. A rt. I, Sec. 8, Cl. 8 (“The Congress shall have
power. . . [t]o promote the progress of science and useful
arts, by securing for limited times to . . . inventors the
exclusive right to their respective . . . discoveries. . . .”).
In implementing the Patent Clause, Congress has been

3
particularly emphatic in protecting inventors’ right. In
the Patent Act, Congress declared that “[a] patent shall
be presumed valid.” 35 U.S.C. § 282(a). As a result, a
“defendant raising an invalidity defense” bears “‘a heavy
burden of persuasion,’ requiring proof of the defense by
clear and convincing evidence.” Microsoft Corp. v. i4i Ltd.
Partnership, 564 U.S. 91, 102 (2011) (quoting Radio Corp.
of Am. v. Radio Eng’g Labs., 293 U.S. 1, 8 (1934)). Amici
have experienced first-hand the paramount importance
of the patent system, as governed by this standard,
in maintaining our nation’s position at the forefront of
entrepreneurial innovation in an ever more competitive
world.
An important attribute of our patent system – and
one equally enshrined in the Constitution – is the right of
inventors to have patent disputes, no matter how complex
and technical they may be, determined in Federal court
by a duly-empaneled jury. As the Seventh Amendment
provides: “[T]he right of trial by jury shall be preserved,
and no fact tried by a jury, shall be otherwise re-examined
in any Court of the United States . . . .” U.S. Const. A mend.
VII.
So important was the right to a jury trial that
assurance of its inclusion in the Bill of Rights became
a key argument in securing ratification. See P. Maier,
Ratification: The People Debate the Constitution, 17871788, at 196-97 (2010). Indeed, Alexander Hamilton wrote
that both sides in the ratification debate actually had
reached consensus on this issue:

4
The friends and adversaries of the plan of
the Convention, if they agree on nothing else,
concur at least in the value they set upon trial
by jury; if there is any difference between
them, it consists in this: the former regard it
as a valuable safeguard to liberty; the latter
represent it as the very palladium of free
government.
The Federalist No. 83, at 426 (M. Beloff ed. 1987).
The Seventh Amendment, moreover, does not simply
protect the constitutional right to a jury trial in civil
cases. It is also a limitation on a reviewing court’s power
to disturb a jury’s determination as to the weight and
credibility that should be afforded to evidence at trial.
That evidence emphatically includes the opinions of
expert witnesses. This Court has enforced this principle
in numerous decisions throughout our nation’s history.
As the Court held in Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 255 (1986): “Credibility determinations, the
weighing of the evidence, and the drawing of legitimate
inferences from the facts are jury functions, not those
of a judge.” Among other things, in reviewing a jury
verdict, the court of appeals “should review all of the
evidence in the record” and “must draw all reasonable
inferences in favor of the nonmoving party, and it may not
make credibility determinations or weigh the evidence.”
Reeves v. Sanderson Plumbing Products, Inc., 530 U.S.
133, 150 (2000) (citations omitted): see 19 J.W. Moore, et
al., Moore’s Federal Practice: Civil §206.02 (3rd ed. 2016)
(collecting cases).

5
These principles are especially important with respect
to the Federal Circuit, because that court has exclusive
appellate jurisdiction over patent matters. The Federal
Circuit’s decision in this case is not an isolated incident,
but rather the latest in a number of cases in which the
court has imposed its own view of the facts in place of the
considered determination of a duly-empaneled jury. See
Brief of US Inventor, Inc. as Amicus Curiae in Support of
Petitioner in No. 19-101, at 7-9. This approach is weakening
our patent system by limiting the rights and protections
that innovative entrepreneurs need in order to continue
to promote, foster and develop new technologies.
2. The Decision Below Gravely Weakens Patent
Protection and Threatens Innovation
The Federal Circuit’s decision in this case, if not
reversed, will create a dangerous crack in the wall of
patent protection that is essential to protect innovation
and entrepreneurial investors. It will chill innovation
by allowing a panel of judges, reading a cold record, to
arbitrarily invalidate patent rights that were upheld by a
jury that heard the evidence and observed the witnesses
and expert testimony in a week-long trial – the very same
rights that were vindicated by the Patent Office as well,
in issuing the patents, in inter partes review initiated by
defendant here after the trial and yet again in an ex parte
“third-party” review proceeding.
Included in the evidence that the jury heard and
considered was the testimony of defendants’ engineering
expert, who explained his opinion that certain of the
claims in plaintiff’s patents were anticipated in the prior
art. The expert was cross-examined at length, raising

6
questions about his credibility and veracity generally.
Plaintiff’s expert testified to his own opinion that the prior
art was not anticipatory and did not cover the claims at
issue. He testified, among other things, that defendant’s
expert analysis of the patent’s limitations did not make
any sense because it would result in a non-functional
camera. Considering this, and all the other evidence,
the jury concluded that the patent was valid because
defendant had failed to meet its heavy burden of proving
anticipation by clear and convincing evidence; and the
jury further found that defendant’s infringement was
willful. The district judge, who also heard and observed
the witnesses, upheld the jury’s finding as supported by
the evidence, and entered a $22 million judgment.
Yet on appeal, looking only at the cold record, the
Federal Circuit addressed the prior art issue by dissecting
the competing evidence like a pathologist. It discussed the
testimony of both parties’ experts in detail, and concluded
that “the jury’s finding lacks any reasonable basis”
because the “jury was required . . . to find the claims . . .
at issue to be anticipated by prior art.” Petition at 8a-11a,
13a-14a (emphasis added). In reaching this decision,
the court used descriptions that rang of prototypical
fact-finding – that defendant’s expert testimony was
“strong,” “straightforward,” “not contradicted,” and not
“impeached.” Petition at 13a.
This fact-finding by the Federal Circuit flies in the
face of the Seventh Amendment. The court flatly failed to
view the evidence, inferences and credibility issues in the
light most favorable to the verdict. See p. 3 above. Indeed,
it did just the opposite, thereby violating the precept that
“[t]rial by jury is a fundamental guaranty of the rights

7
of the people, and judges should not search the evidence
with meticulous care to deprive litigants of jury trials.”
Galloway v. United States, 319 U.S. 372, 407 (1943) (Black,
J., dissenting) (citation omitted).
Even if the Federal Circuit were correct that the
defense expert’s testimony was “uncontradicted” and
“unimpeached,” that is no basis for overturning a verdict.
Nor is there any requirement that a patentholder must
introduce testimony to support the patent’s validity, since
the Patent Office has already made that determination in
granting patent rights. “There are many circumstances
in which testimony need not be accepted even though
formally uncontradicted. ‘The jury is instructed that it is
completely free to accept or reject an expert’s testimony,
and to evaluate the weight given such testimony in light
of the reasons the expert supplies for his opinion.’”
Powers v. Bayline Mariners, Corp., 83 F.3d 789, 79798 (6th Cir. 1996) (internal quotations omitted) (citing
Quock Ting v. United States, 140 U.S. 417, 420 (1891)).
See, e.g., Strickland v. Francis, 738 F.2d 1542, 1552 (11th
Cir. 1984) (finder of fact can reject uncontested expert
testimony); Grenada Steel Industries v. Alabama Oxygen
Co., 695 F.2d 883, 889 (5th Cir. 1983) (“It was for the jury
to decide which of the experts was more credible, which
used the more reliable data, and whose opinion – if any –
the jury would accept.”); United States v. Woodson, 526
F.2d 550, 551 (9th Cir. 1975) (finder of fact can disbelieve
uncontested expert testimony); United States v. Coleman,
501 F.2d 342, 346 (10th Cir. 1974) (“The credibility and
weight of expert testimony are matters within the jury’s
province and need not be accepted as conclusive even
though uncontradicted by counter-medical expertise.”);
Hassan v. Stafford, 472 F.2d 88, 96 (3d Cir. 1973) (“a trier

8
of fact is not bound to accept an expert’s opinion merely
because it is uncontradicted”).
Moreover, the effective result of the Federal Circuit’s
reasoning was that plaintiff could avoid judgment
against it as a matter of law only by fulfilling, to the
court’s satisfaction, an affirmative obligation to rebut
or contradict defendant’s expert testimony concerning
invalidity. But this turns the Patent Act upside down, by
forcing the plaintiff to carry a burden that by express
statutory enactment rests on the defendant. See 35
U.S.C. § 282(a); Microsoft Corp., 564 U.S. at 102. Expert
testimony merely involves “expressions of opinion by
[witnesses] familiar with a subject,” and those opinions
“have no such conclusive force that there is error of law
in refusing to follow them.” Dayton Power & Light Co. v.
Pub. Utils. Comm’n of Ohio, 292 U.S. 290, 299 (1934). As
with any other kind of evidence, “even if such testimony be
uncontradicted,” the jury may “exercise [its] independent
judgment” not to credit it. The Conqueror, 166 U.S. 110,
131 (1897). Thus, even if plaintiff had offered no evidence
at all on invalidity, the jury was empowered to find that
defendant had not carried its high burden of proof by clear
and convincing evidence. By ignoring the burden of proof
in patent cases, and the proper role of appellate courts,
the Federal Circuit has invited mischief into the judicial
system. It has given the losing party – whether plaintiff
or defendant – a disruptive tool to change jury outcomes
based on the fact-finding of appellate judges.
Under our constitutional system, as implemented by
the Patent Act, inventors are entitled to rely on the good
judgment of a lay jury of citizens, duly empaneled from
the court’s venue, to determine whether the exacting legal

9
standard for proof of invalidity by clear and convincing
evidence has been met. That system, though criticized
from time to time, has produced the most creative and
dynamic economy the world has known. Amici are gravely
concerned that the effective result of the Federal Circuit’s
decision is to reallocate the burden of proof for invalidity
that Congress has deliberately placed squarely on the
party attacking a patent.
By substituting its judgment for the jury’s (and trial
judge’s) on quintessential questions of fact, the court
below threatens to upend that carefully constructed
system. In overturning the validity determinations of
both the jury and the Patent Office, the decision below, if
allowed to stand, means there can be no assurance that
the intellectual property rights of any U.S. inventor will
remain intact even after withstanding multiple challenges
at the Patent Office and at trial. The decision is particularly
pernicious because patent appeals, rather than going to
one of the twelve geographically-defined courts of appeals,
are universally funneled to the exclusive jurisdiction of
the Federal Circuit. This, the Federal Circuit’s law, which
now includes a gravely erroneous standard for review of
patent verdicts, will control all future patent appeals.
Innovation has thrived because of our nation’s comment
to and enforcement of strong rights and protections for
intellectual property. Generations of inventors have relied
on these protections. Yet the decision below diminishes
the value of all intellectual property rights and weakens
the protections that are essential for continued innovation
in the face of intense worldwide competition.

10
Conclusion
For the foregoing reasons and those stated in the
Petition, the Petition for Certiorari should be granted.
August 19, 2019

Respectfully submitted,
David A. Barrett
Counsel of Record
Nicholas A. Gravante, Jr.
Helen M. Maher
Boies Schiller Flexner LLP
55 Hudson Yards
New York, NY 10001
(212) 446-2300
dbarrett@bsfllp.com
Counsel for Amici Curiae

APPENDIX

1a
Appendix
Appendix
— signatories
Mark Ain has had a distinguished career as the
founder, Chairman and CEO of Kronos, Inc., a multibillion
dollar software company, having led it through its initial
public offering in 1992 to its current size with over 5,500
employees. He received his undergraduate degree from
Massachusetts Institute of Technology in Electrical
Engineering.
Gil Amelio has had a distinguished career as
an entrepreneur and senior executive in emerging
technologies companies. Dr. Amelio’s career has included
service as President of Rockwell International, Chief
Executive Officer of National Semiconductor and Chief
Executive Officer of Apple, Inc. He has worked with
such Silicon Valley firm as Sienna Ventures, Advanced
Communications Technologies, and founded Acquicor with
Steve Wozniak. He has served on a number of boards,
including Interdigital, Inc., Galactin Therapeutics and
AT&T, and is Chairman of Petitioner’s board of directors.
He is an IEEF Fellow, has been awarded 16 patents and
is the receipt of numerous awards.
Edward A rrendell is a leading management
consultant in the arts, music and entertainment. He
represents numerous musicians and performers through
his company, The Management Ark, Inc. He is a graduate
of Harvard Business School and is a leading advocate of
innovation.
Rob Chess is a serial entrepreneur in the life
sciences field. He is Chairman of Nektar Therapeutics,

2a
Appendix
(NASDAQ:NKTR), a health care biotechnology company
of which he was formerly CEO; and Biota Technologies, a
company he co-founded which has pioneered the use of DNA
sequencing for optimizing oil and gas production. He serves
as lead director of Twist Biosciences (NASDAQ:TWST),
which produces synthetic genes using an innovative
high-throughput silicon-based manufacturing process.
Mr. Chess co-founded and was President of Penederm, a
dermatology company that went public and was acquired
by Mylan Laboratories; and he was the start-up CEO
and later Chairman of OPX Biotechnologies, a renewable
chemicals company acquired by Cargill. Mr. Chess served
in the administration of President George H.W. Bush as a
White House Fellow and Associate Director of the White
House Office of Economic and Domestic Policy. He is a
lecturer at the Graduate School of Business at Stanford
University.
Ronald Drucker spent much of his career at
CSX Corporation, as President and CEO of CSX Rail
Transport and in other capacities including Chairman and
CEO of CSX Technology, President of Baltimore and Ohio
Railroad and President of Chesapeake & Ohio Railway.
A civil engineer by training, Mr. Drucker is active in
community matters, and was Chairman of the Board
of The Cooper Union for the Advancement of Science &
Art and Chairman of the Board of the National Defense
Transportation Association.
Carly Fiorina forged a distinguished career as a
senior executive in the technology industry, culminating in
her tenure as Chief Executive Officer of Hewlett-Packard

3a
Appendix
Company, where she was the first woman to lead a Top-20
company. Ms. Fiorina oversaw HP’s acquisition of Compaq,
making it the world’s largest seller of personal computers.
In 2004, she was included in the Time 100 ranking of “most
influential people in the world.” In 2016, Ms. Fiorina was
a candidate for the Republican nomination for President
of the United States.
Cliff Jernigan served as a senior executive with
Advanced Micro Devices, Inc., including as its Director
of Taxes, General Tax Counsel, and Worldwide Head
of Government Affairs. He also has devoted significant
portions of professional career to public policy issues,
having in-depth experience with the U.S. Congress, the
European Commission,; the California Legislature, and
federal agencies including the Internal Revenue Service,
the Treasury and Commerce Departments and the United
States Trade Representative.
John Kispert is a long-time senior technology
executive. He spent over a decade at KLA-Tencor, growing
its semiconductor business into a multi-billion dollar
publicly traded company. He is currently the Executive
Chairman of ESS Technology, Inc., the Chairman of
Spin Memory, Inc., and a member of Petitioner’s board
of directors. He served as President and Chief Executive
Officer of Spansion, Inc. prior to its merger with Cypress
Semiconductors. He is a guest lecturer at the Hass School
of Business at the University of California Berkeley and
the Anderson Graduate School of Management at the
University of California Los Angeles.

4a
Appendix
George Lauro has spent over 25 years as a technology
entrepreneur, operating executive, and venture capitalist,
including as a Board member at seven public and 26
private companies. He is former Managing Director and
Partner at Wasserstein Perella, where he opened the
Silicon Valley office and headed the West Coast technology
investment group. He was IBM’s Managing Director
of Technology Commercialization, launching spinout
from the Watson Research Lab in sectors ranging from
advanced materials to wireless, artificial intelligence,
and natural language interfaces. He has been awarded
23 patents for inventions relating to semiconductors and
energy storage technologies.
Kenneth Levy has been involved in technology
in Silicon Valley for over forty years. He is Chairman
Emeritus of KLA-Tencor Corporation, having founded
KLA Instruments in 1974 and serving as CEO for 25 years
and Chairman until his retirement in 2006. KLA-Tencor
is publicly traded (KLAC) and one of the five largest
semiconductor capital equipment companies in the world,
and is the leading company in inspection, metrology and
yield management systems serving the semiconductor
industry. Mr. Levy is a member of the National Academy
of Engineering and has received numerous awards. He
is currently a Board member of several publicly-traded
companies including Ultratech Stepper (UTEK), Extreme
Networks (EXTR) and Juniper Networks (JNPR), and a
member of Petitioner’s board of directors.
Denis Nayden has had a long career as an investor
and innovative business leader. A former protégé of Jack

5a
Appendix
Welch, Mr. Nayden served as Chairman and CEO of
GE Capital Corporation, growing it into one of General
Electric’s most profitable business units. He also has
served as a Managing Director of Oak Hill Capital
Partners, leading the firm’s investments in numerous
innovative companies.
Jon Saxe has served as a director of over 25 companies
and at present is a director of two public companies,
Durect Corporation (NASDAQ: DRRX) and VistaGen
(NASDAQ:VTGN), and of private companies Arbor Vita,
Arcuo Medical, Cancer Prevention Pharmaceuticals.
Epalex, Lumos Pharma and Trellis Bioscience. He was
President and CEO of Synergen, Inc., a biotechnology
company purchased by Amgen. Prior to that, Mr. Saxe was
Vice President, Licensing and Corporate Development,
and Head of Patent Law for Hoffmann-LaRoche Inc.

